No.

IN THE
SUPREME COURT OF THE UNITED STATES

\fsl(xSh rejoin D,Cl?oSq3
fHbe

(bjp€C Sachtic

—PETITIONER r

(Your Name)

'vt, i

)
lij? Ei tl h

VS.

^~T)c\Y< d HucfCt/m h n

e\ n

■?*),

n
F

# f.
^iJ
"FILED

— RESPONDENT^

SEP 3 0 2021

ON PETITION FOR A WRIT OF CERTIORARI TO

cmp'rrIe^CO U RTLuJL

H&M

Rooi^fancJ g\n</

t ‘pi^SPov1 cfcoondJtfri 'n^j

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CSASE)
PETITION FOR WRIT OF CERTIORARI

(j ne

(/bpr? ScytVi^tV ~C

(Your Name)

(0\6<??Y) IIm CA

p oo (i'W ^©Moh^tyho0

(Address)

(City, State, Zip Code) '

(Phone Number)

S£

QUESTION(S) PRESENTED

NY-PENAL'LAW''35.15 JUSTIFICATION.
I reasonably believes to defend myself,when I am risk of peril,
whenever can be in my defense. I. AM JUSTIFY

4.CONSTITUTIONAL RIGHT TO REAR ARMS UNDER SECOND
AMENDMENT.
In time of war the army get the gunfire for'the defense.
3o , I 'W&s i*in ;,risk' of peril,I get my tool for myself defense.

MY LAWYER: JOHN R.LEWIS
In the supreme court of the'state of new york.
Appellate division:second department.

Master:'JOHN R.LEWIS
He wa's

'presented" r justification , reversed? and vacated.

The trial court not give me transcripts of the chye.
So,, I not 'have1 information of the trial jurry.
I way submit ,motion for get my minutes,but they not give me
nothing and not give me one answer-to my motion.
So, justification iy reasonably in myi.caye.

LIST OF PARTIES

M/A\l parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
REINALDO E. RIVERA,J.P
COLLEN D.DUFFY
ANGELA G. IANNACCI
PAUL WOOTEN,JJ.

ROCKLAND COUNTY COURT.
DAVID S . ZUCKERMAN rJ .

218-12018

THE PEOPLE RESPONDENT
V. NOE LOPEZ SUCHTTE,APPELLANT.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A : COPY^OF TUE SUPREME COURT APPEALS
ORDFN TN DRYING ' TO LEAVE ' APPEALS
APPENDIX B : COPY":OF THE"' SUPREME

COURT SECOND JUDICIAL''

DEPARTMENT ORDEN THAT THE JUDMEGMEN'IS AFFIRMED.
APPENDIX C : COPY OF THE ROCKLAND- COUNTY COURT
FELONY 'COPMLAINT

APPENDIX D

WESTLAW:PEOPLE V.SUCHITE,191A. D.3d 906
SUPREME COURT APPELLATE DIVISION SECOND DEPARTMENT NEW YORK
ORDERED THAT THE JUDGMENT IS AFFIRMED.

APPENDIX E

IMMIGRATION COURT.121 RED SCHOOLHOUSE ROAD FISHKILL NY 12550

APPENDIX F

COPY OF MY LAWYER,ABOUT THE QUESTION OF THE TRANSCRIP.

iA-

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

PAPER PAGE: 3,4

STATUTES AND RULES

PAPER PAGE: 28

OTHER

TABLE OF AUTHORITIES
Page
Matter ofIsmail S, 213 A.D. 2d 169 (1st Dept 1995)

18

People v. Acevedo, 112 A.D. 3d 985 (3d Dept. 2013)

23

People v. Ball 154 A.D. 3d 1060 (3d Dept. 2017)

19

People v. Batista, 92 A.D. 3d 793 (2d Dept. 2012)

23

People v. Caban, 5 N.Y. 3d 143 (2005)

25

People v. Clark, 42 Misc. 3d 128(A)(App. Term, 2d Dept. 2013)

23

People v. Collins, 119 A.D. 3d 956 (2d Dept. 2014)

24

People v. Conley, 70 A;D. 3d 961, 961 (2d Dept. 2010)

22

People v. Davydov, 144 A.D. 3d 1170 (2d Dept. 2016)

24

People v. Donovan, 184 A.D. 2d 654 (2d Dept. 1992)

24

People v. Every, 146 A.D. 3d 1157 (3d Dept. 2017)

17

People v. Gorham, 72 A.D. 3d 1108 (2d Dept. 2010)

23

People v. Holmes, 166 A.D. 3d 559 (1st Dept. 2018).

25

People v. Kelly, 62 N.Y. 2d 516, 521 (1984)...........................

23

People v. Lopez, 113 A.D. 2d 475(2d Dept. 1985)....................

17

People v. Manigault, 125 A.D. 3dl480 (4th Dept. 2015)..........

23

People v. Marchant, 152 A.D. 3d 1243 (4th Dept. 2017).......... 17,19, 22
People v. Sackey-El, 149 A.D. 3d 1104, 1105 (2d Dept. 2017)
(cont’d)
' 3

19

Page
People v. Samuels, 185 A.D. 2d 903 (2d Dept. 1992)

23

People v. Sanchez, 157 A.D. 3dl07 (1st Dept.2017)..

17

People v. Singh, 139 A.D. 3d 761, 762-63 (2d Dept. 2016)

17

People v. Torres, 169 A.D. 3d 1068 (2d Dept. 2019)........

23

People v. Wesley, 16 N.Y. 2d 555, 559 (1990)

18

4

Statement Pursuant fn CPLR 55^ 1
1.

The indictment number of this case

in the court below was 312-

2016, Rockland County Court.
2.

The original parties were the People of the State of New York

and Noe Lopez Suchite, Defendant-Appellant (“Appellant”).
3.

This action commenced in the Rockland County Court.

4.

This action was a criminal prosecution commenced by
indictment in or about September, 2016.
5.

This was a criminal action charging Appellant with
one count
Of attempted assault first degree and one count of assault second degree.
He was eventually convicted after juiy trial of assault second deg
ree, and
sentenced to six years’ imprisonment plus three years’ post-release
supervision.
6.

This appeal is from a judgment dated N

ov , 6, 2017 sentencing
Appellant to six years imprisonment, plus three years post-release
supervision, per Hon. David Zuckerman.
7.

This appeal is being prosecuted on the original record

, which
method is authorized by Second Department Rule 670.9(d)(l)(viii).

Statgmgnt Pursuant to R..1p 670.10
1.
2.

)

There is no outstanding order pursuant to CPL 460.50.
There were no co-defendants.

28

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
(V1] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A
to the petition and is
[xl reported at
^..
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
court
The opinion of the July 6 2021.
appears at Appendix
a to the petition and is
[reported at July 6 2023
; or,
[ ] has been designated for publication but is not yet reported; or,
p] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________ _
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was v 1:1/67201 7
A copy of that decision appears at Appendix
..—.
[xj A timely petition for rehearing was thereafter denied on the following date:
2/17/2021____________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

“

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

TRIALCOUNSEL WAS INEFECTIVE FOR:NOT REQUESTING AN ADVERSE
INFERENCE CHARGE WITH REGARD TO THE PROSECUTION’S 'FAILURE
TO 'PRESERVE AND PRODUCE VIDEO RECORDINGS THAT DID EXIST; NOT
RENEWING 'AND PRESERVING HER INITIAL REQUESTTFOR SOME SANTION:
AND NOT OBJECTING TO'THE COURT'S 1 FAILURE TO DELIVVER AN ADVERSE
INFERENCE CHARGE.
A prosecution has an obligation to preserve all evidence which
may be subject to.Thus when the. prosecutor fails to preserve
potencial evidence to the court may fashion an appropriate response
to eliminate any prejudice to the defendant; while protecting the
of society
Here,the trial court providently texerciyed its '.M
diycretion in giving the jury an adverse inference with respect to
an unpreserved video recording.
People v.Conley,70 A.D.3d,961,961(2d Dept.2010.
people v. kelly,62 N.Y.2d 516,521(1984)
People v. Samuels,185 A;D.2d903(2d Dept.1992).
People v. Batista,92 AJD.3d 793(2d Dept.1992).
people v. Gorham,72 A.D.3d 1108(2d Dept.2010).
people v. Clark, 42 Misc.3d 128(A)(App.Term,2d Dept.2013).
people v. Acevedo, 112 A.D.. 3d 985(3d Dpt.2013).
^People v. Torres,169 A.D.3d 1068(2d Dpt.2019).
people v. Manigault,125 A.D. 3d 1480(4th
People v.

Dpt.2015).

Collins,119 A.D.3d 956(2d Dpt.2014).

People v. Davydov,144 A.D.3d 1170(2d Dpt.2016).
people v. Donovan,184 A;D.2d 654(2d Dpt.1992).
people v. Caban,5 N.Y.3d 143,152(2005).
people v. Holmes,166 A.D.3d 559(1 st Dpt.2018).

STATEMENT OF THE CASE
APPELLATE DIVISION:SECOND DEPARTMENT
APPELLANT) S REPLY,V'BRIEF
FIRST:THEY CONTEND THAT DEFENDANTE AND PAIZ BONILLA WERE AGGRESSORS
(ID. 16) THEY IGNORING VICTIM HERNANDEZ'S OWN TESTIMONY THAT HE
■ ACTUALLY PUSHED APPELLANT FIRST AND THEN APPELLANT CAME TOWARD HIM
(TR.110).THEY IGNORE OWNER/ MONZON1S SIGNED STATEMENT TO THE POLICE
WHICH

STATED THAT APPELLANT AND PAIZ BONILLA HAD BEGUN FIGHTING

WITH ANOTHER GRUPO OF MEN WHEN THEY WENT OUTSIDE(lD175.
THE PEOPLE ALSO CLAIM THAT 1 THE: TESTIMONY SHOWED THAT ONLY MONZON AND
HERNANDEZ WERE

Tn

INVOLVED IN THE FIGHT, AND THAT THE OTHER EMPLOYEE

ONLOOKER .
THE PEOPLE ARGUE THAT A FREY STATEMENT:PAIZ BONILLA'S TELLING
THE POLICE THAT APPELLANT HAD SAID TO HIM:THEY'S RE GOING
TG50BEAT US UP...PEOPLE KILL INSIDE.
HERNANDESZ ABMITTED THAT APPELLANT HAD BEENGF0RCED OUTSIDE
THE BARIFOLLOWING THE ARGUMENT OVER THE BILL.AND THAT HERNANDEZ
INITIATED THE PHISICAL ESCALTION BY PUSHING APPELLANT TO THE
GROUND: THAT THERE WEREOOTHER BAR EMPLOYEES y1.e.PRESUMABLE .ALLTAS OF MONZON. AND HERNANDEZ STANDING CLOSE BY; AND THAT THE ENTIRE
MELEE TOOK ABOUT TEN SECOND,I.e
ABPELLATEODIVISION:SECOND DEPARTMENT
APPELLANT'S BRIEF ON APPEAL
COPYS OF STATEMENT

SUBMIT'""IN‘THE APPEAL BRIEF ;

IN~N0TTFIOATIONMTHAT THE TRANSCRIPTS \ARE NOT i'INffMYUHANDS .

Preliminary Statement
Defendant-Appellant Noe Lopez Suchite (“Appellant”), by the
undersigned counsel, hereby submits Appellant’s Brief on Appeal, seeking
reversal of his conviction for assault second degree.

QUESTIONS PRESENTED
POINT I: DID THE TRIAL COURT ERR IN REFUSING TO CHARGE
THE JURY ON JUSTIFICATION?
POINT II: WAS TRIAL COUNSEL INEFFECTIVE FOR: NOT
REQUESTING AN ADVERSE INFERENCE CHARGE WITH REGARD
TO THE PROSECUTION’S FAILURE TO PRESERVE AND PRODUCE
VIDEO RECORDINGS THAT DID EXIST; NOT RENEWING AND
PRESERVING HER INITIAL REQUEST FOR SOME SANCTION; AND
NOT OBJECTING TO THE ABSENCE OF AN ADVERSE INFERENCE
CHARGE?
Appellant respectfully submits that both questions should be answered
in the affirmative.

STATEMENT OF FACTS
A. Overview of the Case
In their opening statement, the People alleged that on August 20, 2016
at about 4:00 AM, Appellant attempted to cause serious physical injury to
the complainant Jose Hernandez, and did in fact cause physical injury to him

5

by means of a dangerous instrument, i.e. a knife. The alleged crimes were
attempted assault first degree and assault second degree. (Tr. 28). 7^
The incident at issue took place at the El Polio Grande bar in Spring
Valley, NY, where Hernandez and bar owner Abel Monzon were working
that night, and Appellant was drinking with his friend Angel Paiz-Bonilla.
Allegedly, a dispute arose over the bill between Monzon and Hernandez on
one side, and Appellant and Paiz-Bonilla^on theother, resulting in the two
latter men being escorted from the bar. Outside the bar, the argument ^
“turned physical”, leading to Hernandez’s coming to Monzon’s aid.
Appellant is alleged to have then stabbed Hernandez in the chest with a
knife. Appellant and Paiz-Bonilla ran from the scene at that point. (Id 30)
Defense counsel’s opening statement indicated that Appellant’s
primary defense was going to be justification (Id 42). She suggested that
Monzon and Hernandez were “beating hell” out of Appellant’s friend PaizBonilla, who was intoxicated to the point of “stumbling-drunk”, i.e. unable
to defend himself (Id 40, 43), causing Appellant to come to Paiz-Bonilla’s
aid. Moreover, Appellant himself was very small in stature, and no match
for Monzon and Hernandez (Id 40-41).
For purposes of this appeal, Appellant is not challenging his
possession of the knife, his identification as one of the men in the fight, or

6

the extent of Hernandez’s injuries. His primary argument herein is
justification, i.e. defense of himself and his friend Paiz-Bonilla. For this
reason, the statement of facts to follow will focus primarily on the trial
evidence pertaining to the justification defense. Facts will also be presented
pertaining to the failure of the People to produce a video that could have
shed a great deal of light on that defense, and trial counsel’s failure to move
for an appropriate sanction.

B. People’s Witnesses
1. P.O. Parwanta
Police Office Khalid Parwanta testified that on the night at issue he
saw two men running on South Main Street in Spring Valley, NY, one of
whom was Appellant (Id 56-57). He was flagged down by a bar owner at 39
S. Main St., where he saw a man bloodied and holding his chest. He held
bandage up the man (Id 58-59). Soon after, he received a radio transmission
that two men were being held at Johnson Street, and that a knife was
recovered from one of the men, later identified as Appellant (Id 64-66). He
then went to Johnson Street, observed the two men, and was given the knife
that was recovered (

)■

7

On cross-examination, Parwanta was asked if he had been asked by
any of the detectives to obtain video recordings of any of the local
businesses. He responded that some such effort was made. He found that the
cameras at the laundromat next to the restaurant had been “out”. Asked
whether he inquired as to recordings from El Polio Grande, the scene of the
actual stabbing, Parwanta simply answered “I know they have no cameras
outside” (Id 83). (This would later be directly contradicted by Abel
Monzon, the bar owner, Id 176, see below). Parwanta made no further
mention of any investigations into videos from El Polio Grande.

2. Jose Hernandez
Jose Hernandez testified he was working at the El Polio Grande bar
between 3:45 and 4:00 AM on the night in question (Tr. 107). An argument
ensued when two men whghad paid_with a card falsely claimed that the card -K
had not been returned to them. The two men were “aggressive”, so A
Hernandez and his boss Monzon told them thev had to leave because the bar X
------—

• -...................................... ..

,

,

|

.

..................................................................................

_ |

^

W

was closing. Once ejected, the two men started beating on the door. When X
Monzon told them they “didn’t have to do that”, Hernandez testified, the two Y
men lunged at him (Id). ^

8

Hernandez stated he tried to stop the two men from hitting Monzon (Id V108). One of theJwo men was coming towards him and he put his hands up. >(
At that point, the man (identified as Appellant, Id 110) stabbed him (Id 108).
Hernandez testified soon afterward that he actually pushed Appellant
first, a^thenApp^^tJlcameto^^^hinfJ^iJiQ^Iylorrients lat^er,

X

Hernandez stated, he realized he was cut (Id 111). Meanwhile the other man
presumably Paiz-Bonilla) was fighting with Monzon. Then both men took
off running (Id). Hernandez testified that he was in pain from the stabbing
for 3-4 months, and could not work for a month (Id 115).
When asked whether El Polio Grande had video surveillance cameras,
Hernandez answered that there were cameras inside, but “he hadn’t seen
any” outside (Id 116).
On cross-examination, Hernandez stated again that he did push
Hernandez to the ground, and only realized later that he had been cut. He
had never seen a knife in Appellant’s hand. No__additional punches were. %
thrown. The entire incident took about 10 seconds (Id 136-37).
When shown a document prepared by the police that he signed stating
that the man who stabbed him was Angel Paiz-Bonilla (and not Appellant),
Hernandez did not deny signing the statement, but insisted that he had never
said this (Id 147).

9

Finally, Hernandez acknowledged that he himself had pending
charges of sexual abuse first degree (Id 150).

3. Abel Monzon
Monzon confirmed he was the owner of the El Polio Grande
restaurant (Id 165). He employed Hernandez, who worked with him on
weekends (Id 166).
Monzfintestifiedthat at afeDuti,Md,lWo.guyj..became.“aiittle %
aggressive at the bar” (Id 166). One (Appellant) was short, and the other “a
little taller” (Id 167). He told the two men they had to leave. When .they X
refused, he stated, “we had to make them leave” (Id). Monzon stated he Xf
followed the two men outside, and “as they were walking out”, they tried
\

hitting me.. .with their hands” (Id 167-68). N<f
According to Monzon, Hernandez approached when he saw Monzon
“was getting hit” (Id 168). Hernandez tried to separate Monzon from the two

X

men, “and then one of them went against him” (Id), the one with the white
shirt (i.e. Appellant, Id 169). When Hernandez put his handup agamsUns X
side, a friend told him he was bleeding. The “other man” (Paiz-Bonilla)

/
);v

supposedly “went towards” Hernandez, as. well... Then the two men ran away X
(Id 169).

10

On cross-examination, Monzon acknowledged that he had records
indicating the names of his other employees working that night at El Grande
Polio, but the police never asked him for this information (Id 171). He
agreed that he himself also participated in the fight outside the bar. He never
observed a knife (Id 172). Hejil^mejd^.j^s^sun^i^toodjvvlian he
signedjLS.tatement prepared by the police which stated that Appellant and
Paiz-Bpnilla had begun fighting with another group of men when they went, N(
outside (Id 175).y.
Of particular importance was Monzon’s acknowledgement that there
were in fact video cameras positioned both inside and outside of El Grande
Polio, and that he told this to the police (Id 176). Asked whether he
provided the videos to the police, he answered “I can’t make a video out of
that. I can’t access it”. He told the police they could have the recordings,
but did not know if they ever attempted to access them, and “couldn’t
remember” whether the police ever asked him for access to the video
equipment after August 20, 2016. He answered a clear “no” when asked
whether the D.A.’s office had ever asked for such access (Id).
Asked whether there were often incidents with drunk customers,
Monzon answered no, because he doesn’t allow customers to drink to excess
in his bar (Id 177). Monzon.stated that he himself suffered no injuries from
n

the eventual physical altercation (Id 178). He did claim to have been struck.
When asked if he struck either of the other two men, he responded “I pushed
them” (Id 179).
4. Angel Paiz-Bonilla
The People called Paiz-Bonilla to testify. He confirmed that he was at
El Polio Grande with Appellant on the night in question and that eventually
there was an argument at the bar regarding the bill (Id 195). He testified that
he was fighting one-on-one_with the person who had brought him the bilk X
and that this person pushed him outside, while Appellant was still inside.the
bar with a different person he was arguing with (Id 196). Paiz-Bonilla said
he hit his opponent first, that they then fought, and that “they” then took him
out of the bar. He stated that as a result of being pushed outside, he
sustained injuriesio, his.back and elbow (Id 197).
On cross-examination, Bonilla sharply contested Monzon’s earlier X
testimony .that Bonilla and Appellant were not drunk “because Monzon did XN
not allow customers to become drunk”, stating that the he and Appellant had X
.......

had each more than 15 alcoholic drinksjthat evening (Id 209). ^
Shown photographs, Bonilla confirmed they,accurately reflected
multiple injuries, to his back, arm and ankle that he suffered from the fight at
El Polio Grande (Id 210).

12

He was shown a document in which he purportedly stated a number of
things, including the statement
I took off running because now the big guy was coming, the security
guard from there who is black and big. He tells me, and that guy tells
me let’s run, because here they 're going to beat us up because they
were coming and many people kill inside, you understand. (Id 214)
Asked if he recalled telling that to the detectives, he answered “Not all of it.
Part of it I remember” (Id). He did recall telling the detectives “they were
following us”, when he and Appellant got into a taxi (Id).

C. Defense Motion to Dismiss
Following the testimony of Trooper John Caban, who responded to
the scene where Appellant and Bonilla were being held, and who recovered
a knife while patting down Appellant (Id 223), the People rested (Id 228).
Defense counsel then moved for dismissal on the grounds that: a) the
evidence did not establish each element of the crimes charged; and b) the
police and prosecution had failed to obtain the video(s) that Abel Monzon
, testified did exist, justifying a dismissal. Counsel stated that the video
would have shown the complete crime, and whether or not either of the two
men were justified in their actions (Id 229).
The A.D.A. first stated why he believed all the elements had been
established (Id 230). As for the missing video, he argued that dismissal was
13

not the proper remedy “at this juncture”. He also contended that Officer
Parwanta testified as to an investigation into these tapes, i.e. whether they
existed or not (Id). (This was in fact false; Parwanta merely stated his belief,
ultimately proven incorrect, that there were no outside cameras at El Polio
Grande.) In any event, there was no evidence of any willful destruction of
such evidence (Id).
The Court denied both motions, without further comment (Id 231).
Following this denial, counsel did not ask for the lesser sanction of an
adverse inference with regard to the missing videos.

D. Defense Rests; Motion to Dismiss at Close of Evidence
The defense announced it was calling no witnesses, and rested (Id
233-34). Defense counsel renewed her motion to dismiss for insufficient
proof. The A.D.A. relied on his previous argument as to the sufficiency of
the evidence. The court denied the motion (Id 236).
Counsel did not renew her prior motion regarding the failure of the
People to produce the El Polio Grande video recordings, and did not ask for
any kind of sanction.

14

E.. Charge Conference: Court Refuses to Charge Justification, and
Defense Counsel Does Not Renew Motion Regarding Missing
Videos.

At the charge conference, defense counsel requested that the jury be
charged on both intoxication and justification (Id 237). The court did agree
to charge intoxication (Id).
As for justification, counsel argued that the evidence adduced from
prosecution witnesses varied in terms of the involvement of both the victim
Hernandez and his boss Abel Monzon, and that a jury could reasonably find
justification depending on which version(s) of the facts they believed (Id
238). The People argued that there was no testimony from anyone as to fear
of physical safety (Id 238-39).
Defense counsel countered that Paiz-Bonilla testified to the fact that
they were physically being thrown out of the bar and that they were engaged
in a physical altercation; and that both Monzon and Hernandez testified to
the physical altercation, and that there was evidence that the latter two
started that altercation. Therefore, there was a jury issue on justification (Id
239-40).
The court stated that there was no evidence that anyone other than
Appellant had a knife or used deadly force, and denied the application (Id
X
15

240). The court’s ultimate jury charge did not include justification (Tr. 279304).

Defense counsel never renewed her application for an adverse
inference instruction or other sanction against the People for failure to
preserve and produce the video recordings from El Polio Grande, and no
such instructions were given. Nor did counsel object to the absence of such
instruction after the Court’s jury charge was delivered.

F. Verdict and Sentence
Following an adjournment for the weekend, on July 31, 2017, the jury
returned a Verdict of not guilty on attempted assault first degree, but guilty }(
of assault second degree (Id 355).
On November 16, 2017, Appellant was sentenced to six years
imprisonment, plus three years post-release supervision,

ARGUMENT
POINT I: THE TRIAL COURT ERRED IN REFUSING TO CHARGE
THE JURY ON JUSTIFICATION.
“In considering whether a justification charge is warranted, a court
must view the record in the light most favorable to the defendant and
determine whether any reasonable view of the evidence would permit the
16

REASONS FOR GRANTING THE PETITION

THE TESTIMONY: NOT ALL THE TESTIMONY IS TRUES
JOSE HERNANDEZ AND ABEL MONZON BOTH LYING IN THE TESTIMONY.
THE TESTIMONY IS NOT BELIEVABLE WHEN BOTH

MEN ENTER IN THE

FIGHT.
BECAUSE:I NEVER PAY WITH DEBIT CART FALSE.
I WAS GOTOUTSIDE OF RESTAURANTE ONLY,WHEN I WAS OPEN THE
B80R I SEE THE BOTH MEN HIT MY FRIENDSSO, I WAS ENTER IN
PANIC.BECAUSE.I DON'T KNOW HOW MANY PERSO WERE IN THE FIGHT.
SO, I'^TAKED OUT MY ^EMERGENCY TOOL.FOR SAVE MY LIFE.
I-WAS NEVER

TO KICK THE DOOR OF GLASS.

I WAS NEVER TO HIT ABEL MOZON,NEVER TRY TO PUNCH ANYBODY
BECAUSE: JOSE HERNANDE FAST CAME ON ME,THEREUNOT TIME

Reaction *avoid

FOR

the problem.

I'''WAS -RUNNING OF JOSESHERNANDEZ HAND VABEL MONZON FOR SAVE
MY LIFE.BECAUSE: ABEL MONZON IS A BUSINESS MAN. HE HAVE
POWER.
THE TRIAL COURT:NOT LISTEN ME

THEY NOT INCLUDED THE DEBIT

CART,THE PHONE BILL DEBIT CART,HOW PROOF OF MY TESTIMONY.
C'\
THE JUDGE ONLY THRWONMME OFFENCE AND MENACE ME.
HE"SAY ME: :MADE MEIIMPOSIBLE MY LIFE IN THE COUTY JAIL.
TOO,HE SAYMME: YOU NOT CONTRIBUTE IN NOTHING THIS CONTRY.
'"NOW, THE COURT NOT GIVE ME THE ^TRANSCRIPT
THE TRIAL COURTwAND THE SUPREME COURT VIOLATE THE LAW'/ll.
^ [EQUALrPROTECTION OF LAW,DESCRIMINETION IN

CIVIL RIGHTS PROHIBIT] l

»

FDR ALL THESE FAILS.IN MY CASE::I WANT THAT THIS COURT FIX MY CASE
AND JUDGEMENT CORRECT. FOR ME,FOR JOSE HERNANDEZ,FDR ABEL MONZON
FDR THE TRIAL,AND FOR THE SUPREME COURT SECOND DEPARTMENT.

NOT VIOLATE MY RIGHTS.

THANKYOU

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
NOE LOPEZ SUCHITE

Date: SEPTEMBER 23 2021

